           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


      OLD-AGE, SURVIVORS AND
     DISABILITY INSURANCE AND
      SUPPLEMENTAL SECURITY
  INCOME PAYMENTS TO DECEASED
   BENEFICIARIES AND RECIPIENTS

   October 2002    A-06-02-12012




   AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                    SOCIAL SECURITY

MEMORANDUM

Date:   October 30, 2002                                                           Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Old-Age,
               Survivors and Disability Insurance and Supplemental Security Income
        Payments to Deceased Beneficiaries and Recipients (A-06-02-12012)

        OBJECTIVE
        The objective of this audit was to determine the status of cases
        PricewaterhouseCoopers (PwC) identified in Fiscal Year (FY) 2000 as having a date of
        death posted on the Social Security Administration’s (SSA) numerical identification
        (Numident) record, although the beneficiary or recipient remained in current pay status.
        As part of this objective, we determined whether SSA made payments to individuals
        who were deceased and the Death Master File (DMF) contained information on living
        beneficiaries or recipients.

        BACKGROUND
        The Old-Age, Survivors and Disability Insurance (OASDI) program provides retirement
        benefits to insured individuals who have reached the minimum retirement age,
        survivors’ benefits to dependents of insured wage earners in the event the family wage
        earner dies, and disability benefits to disabled wage earners and their families. The
        Supplemental Security Income (SSI) program provides payments to individuals who are
        65 or older, blind or disabled.

        Section 205(r) of the Social Security Act requires that SSA match States' death records
        against SSA payment records to identify and prevent erroneous payments after death.
        In addition, SSA matches death records from other Federal, State and local public
        assistance agencies. SSA posts a person’s date of death to its Numident record and
        uses the Death Alert, Control, and Update System (DACUS) to receive and process
        death information. The purpose of DACUS is to ensure that all benefits to deceased
        beneficiaries are terminated appropriately and to produce a national record of death
        information, known as the DMF.
Page 2 – The Commissioner


Specifically, SSA uses DACUS to

     ·   receive death reports from various sources;
     ·   compare the date of death to SSA’s records to detect conflicting information or
         incorrect payments made after a beneficiary's death;
     ·   post death information to SSA’s DMF; and
     ·   generate, control and follow up on alerts to SSA field staff if there are conflicting
         data with or among the payment records.

As part of SSA’s FY 2000 Financial Statement Audit Management Letter, Part 2, PwC
conducted integrity matches on death data. For FYs 1997 through 2000, PwC
compared date of death information between the Master Beneficiary Record (MBR)
(OASDI beneficiaries), Supplemental Security Record (SSR) (SSI recipients), and
Numident record. The Numident record contains information provided by an individual
when he or she applies for an original Social Security number (SSN) and subsequent
applications for replacement cards. The integrity matches identified records in which
individuals were listed as alive and in current pay status on SSA’s MBR or SSR but
deceased on the Agency’s Numident record. Following is a summary of the PwC
findings for FYs 1997 through 2000.1

                      OASDI             Projected Number       SSI Recipients        Projected
                   Beneficiaries            of OASDI              Listed as        Number of SSI
                     Listed as            Beneficiaries         Deceased on         Recipients
     Fiscal        Deceased on              Listed as            Numident            Listed as
      Year           Numident             Deceased on            (5 percent        Deceased on
                (5 percent sample)          Numident              sample)            Numident
      1997              819                    16,380                 60               1,200
      1998              944                    18,880                 66               1,320
      1999              867                    17,340                 49                 980
      2000              706                    14,120                 79               1,580

In its management letter to SSA, PwC recommended that the Agency design and
implement data integrity checking programs for the full-production databases. PwC
made the recommendation to have SSA identify the total population of records with
potential data integrity problems as well as investigate and correct instances of invalid
data on individual records that may affect payment status. In addition, PwC
recommended that SSA refer any suspicious transactions to the Office of the Inspector
General (OIG) for investigation. SSA agreed with the recommendations and stated it
had long-range plans to strengthen data integrity. The plans included automated
database clean-up efforts whenever technically feasible. As of August 2002, SSA was
conducting a data integrity match against the entire beneficiary/recipient population.


1
    PwC’s findings are based on a 5 percent sample of SSA records. PwC’s methodology for projecting its
    findings was to multiply the sample results by 20.
Page 3 – The Commissioner


SSA planned to commence corrective work on the results by the end of
September 2002.

In a May 31, 2001 memorandum, the Boston Regional Commissioner emphasized the
need for field offices (FO) to refocus their efforts in clearing death alerts promptly to
avoid payments after death.2 The Commissioner noted that, while the region had
established targets for timely clearance of death alerts as part of its Workload
Management Plan, it had not made progress in achieving the targets. The
Commissioner also noted that the region had 32.1 percent of targeted alerts pending for
more than 60 days—while the national average was 20.8 percent.

In testimony to Congress on how SSA gathers and distributes death information, SSA
emphasized it takes its role as program steward seriously and stated “the integrity of
this information is of utmost importance.” 3

SCOPE AND METHODOLOGY
Our audit focused on the 706 OASDI beneficiaries and 79 SSI recipients identified by
PwC as part of its Data Integrity Match for FY 2000. The Data Integrity Match
compared the MBR, SSR and Numident records to determine whether individuals were
alive and in current pay status on the MBR or SSR but listed as deceased on the
Numident.

In performing the Data Integrity Match, PwC tested 5 percent of all OASDI beneficiaries
and SSI recipients. This sample was selected using the last two digits of the
beneficiaries’ or recipients’ SSNs.

To accomplish our objectives, we:
·    Reviewed applicable sections of the Social Security Act, the Code of Federal
     Regulations, and SSA’s Program Operations Manual System.

·    Reviewed prior audit reports related to payments to deceased beneficiaries.

·    Obtained PwC’s integrity match data results for FY 2000.

·    Obtained and analyzed beneficiary or recipient information from the MBR, SSR, and
     Numident record to determine whether a date of death discrepancy still existed.




2
    DACUS generates a death alert to the FO when a death report received from a State, local, or Federal
    agency shows that a beneficiary has died, but SSA’s payment record shows the person is alive.
3
    Testimony to the House Committee on Ways and Means, Subcommittee on Social Security, and the
    House Committee on Financial Services, Subcommittee on Oversight and Investigations,
    November 8, 2001, concerning SSA’s collection, maintenance, and distribution of death information.
Page 4 – The Commissioner


·     Coordinated with SSA FOs and requested that they (1) determine whether
      individuals were alive or deceased, (2) correct the records, and (3) provide us the
      results of their efforts.

·     Determined whether SSA made payments to individuals after their reported date of
      death.

·     Quantified amounts paid after the death of a beneficiary or recipient.

·     Referred questionable cases to the Office of Investigations.

We conducted our review between June 2001 and April 2002 in Dallas, Texas. The
entities audited were SSA’s FOs under the Deputy Commissioner for Operations and
the Office of Systems Design and Development under the Deputy Commissioner for
Systems. We conducted our review in accordance with generally accepted government
auditing standards.

RESULTS OF REVIEW
As of July 2001, SSA had not corrected the FY 2000 cases PwC identified as having a
date of death discrepancy. Also, improper payments were made to beneficiaries or
recipients after death and living individuals were listed on the DMF.

Untimely Resolution of Date of Death Discrepancies

SSA is required to compare
death certificate information        Status of Cases as of July 2001
with records it uses (for
example, MBR, SSR, and
Numident) in administering its
programs and to make
                                  Cases
corrections to accurately                            216
                                cleared or
reflect the status of
                                terminated
individuals.4 The PwC
integrity match for FY 2000
                                Number of
projected that, based on a
                                  Cases                                  553
5 percent segment of the
beneficiary or recipient         Requiring
population, 14,120 OASDI        SSA Action
cases and 1,580 SSI cases                  0      200        400          600
contained erroneous
                                                  Cases
information in the Numident
when compared with the MBR
or SSR. The actual PwC sample found 706 OASDI cases and 79 SSI cases (including

4
    Section 205(r) of the Act (42 U.S.C. § 405(r)(1)).
Page 5 – The Commissioner


16 concurrent OASDI and SSI cases) that contained erroneous information. After
allowing for the 16 concurrent cases, the sample found 769 individuals with a date of
death discrepancy.

In July 2001, we analyzed payment status information in the MBRs and SSRs and
compared it with date of death information in the Numident record for the 769 cases.
We found that 553 (71.9 percent) of the cases still contained a discrepancy between the
payment status information in the MBRs and SSRs. This high percentage of unresolved
cases indicates that SSA did not correct the erroneous death information reflected in the
Numident records although PwC brought the discrepancies to SSA’s attention in the FY
2000 audit.

Improper Payments Made to Beneficiaries or Recipients After Death

                                   We requested that SSA determine whether the
The amount of payments after      beneficiaries   or recipients for the 553 cases that
death in the population at-large still reflected a date of death discrepancy at the
could be approximately            time of our review were alive or deceased. We
$12.1 million for a projected     considered actions taken and responses received
160 cases                         through April 30, 2002, the cut-off date for our
                                  review.5 As of that date, the FOs had provided
                                  information that 426 beneficiaries or recipients
were alive, and 48 were deceased. For another 32 cases, FOs acknowledged our
request for assistance and
started the process of                           Results of Request for SSA
determining the individual’s                Review of Cases as of August 6, 2002
status; however, they had not
completed their determination                                       29
as of April 30, 2002. For the                                           42
remaining 47 cases, FOs had                                                                      8
not responded to our request                                            49
                                                                               41
for assistance. On August 6,                433
2002, SSA reported that
another 7 cases were found to
be alive, and 1 more was                         Determined to be alive
confirmed as deceased for a                      FO acknowledged and began review; not completed
total of 433 alive and                           FO did not respond to request
                                                 Deceased, no payments after death
49 deceased cases. Seventy-                      Deceased, payments made after death
one cases remained
unresolved.




5
    We e-mailed our requests for assistance to FOs on January 17 and 18, 2002. For cases with no
    response from FOs, we e-mailed follow-up requests for assistance from March 11 through 18, 2002.
Page 6 – The Commissioner


In the 49 cases where the FO determined the individuals were deceased, the FOs
reported that SSA made payments after death totaling $605,195 in 8 cases
(16.3 percent). Assuming the segment reviewed represents the population at-large, we
project the amount of payments after death in the population could be approximately
$12.1 million for a projected 160 cases. This projection is conservative because it does
not account for any payments after death that may be found in the 71 cases for which
the Agency provided no determination.

Since these payments after death had not been detected before the FOs acted on our
request for assistance, it is likely that, without a special effort to resolve date of death
discrepancies, the payments may have continued indefinitely. For example, of the
eight cases with payments after death, the case with the largest total payment was for
an individual who had died in 1981.

The payment amounts for these eight cases ranged from $1,883 to $185,855 and may
have involved fraudulent activity. In one case involving $17,118, the payments were
direct deposited into the recipient’s account, but a monthly automatic withdrawal had
been made to the local electric company from this account. In another case, SSA made
payments by check to the deceased individual. The FO reported the checks appeared
to have been cashed. In this case, the payment amount was $21,184. All eight cases
were referred to the OIG Office of Investigations.

                                                                             Combined           Projected
Status of Cases as of April 30, 2002                  OASDI           SSI    OASDI/SSI         Numbers in
                                                                             (5 percent          Overall
                                                                              sample)          Population
    Determined to be Alive                                 408            25        433              8,660
    Deceased-No Payments After Death                         38             3             41            820
    Deceased-Payments Made After Death                        4             4              8            160
    Cases in-process by FOs                                  24             5             29            580
    No response from FOs                                     35             7             42            840
Totals                                                     509            44            553           11,060
Amounts Paid After Death                             $472,530      $132,665       $605,195 $12,103,900

SSA processing errors contributed to date of death information being erroneously
posted to the Numident records. For example, FO responses for 104 beneficiaries or
recipients indicated the date of death on the Numident was actually the date of death of
a spouse or other family member.6



6
    We did not specifically ask this question, but some FOs volunteered this information with their
    responses.
Page 7 – The Commissioner


Improper Postings to the Death Master File

In addition to the potential for continuing payments to deceased beneficiary and
recipient accounts, instances in which the Numident record contains an erroneous date
of death results in beneficiary and recipient information being made available to the
public via the DMF. The DMF was created because of a consent judgment in 1980
resulting from a lawsuit brought by a private citizen under the Freedom of Information
Act. The consent judgment requires that identifying information, including the SSN, be
divulged for deceased individuals. Accordingly, SSA maintains a national file of death
information (the DMF) that it is required to disclose to the public under the Freedom of
Information Act.

The DMF is updated daily based on reports SSA receives and contains approximately
70 million records, including Social Security beneficiaries and non-beneficiaries, with
verified and unverified reports of death. If available in SSA’s records, and as required
by the consent judgment, the file contains the deceased’s SSN; first, middle, and
surname; dates of death and birth; State, county, and ZIP code of the last address on
our records; and ZIP code of the address used for the lump sum payment. The publicly
available DMF is provided monthly to the Department of Commerce, National Technical
Information Service (NTIS), which makes it available to the public under the Freedom of
Information Act.

As previously stated, SSA did not resolve the discrepancies identified in the PwC
integrity match. As of July 2001, 553 cases still reflected a date of death in the
Numident record; therefore, it is likely information for these beneficiaries or recipients
was included in the DMF at that time. In May 2002, we checked to see if the 426 living
individuals and the 79 unresolved cases, as determined as of April 30, 2002, were listed
in the public death records available on the Internet. Our review of the Ancestry.com
Internet web site7 (there are several that use the Social Security Death Index) disclosed
that 71 (16.7 percent) of the 426 living beneficiaries or recipients and 47 of the
79 unresolved cases were still listed in the web site. We did not determine how often
this web site updates its death information; however, erroneous information might
appear for an extended period in a web site if the web site does not update its
information monthly.




7
    The specific web site is found at http://www.ancestry.com/search/rectype/vital/ssdi/main.htm.
    Ancestry.com is an Internet service owned and operated by MyFamily.com, Inc. The company uses the
    Social Security Death Index as part of the research service it provides to the public. SSA recognizes
    that the Death Master File Extract is purchased by other parties through NTIS and is posted on different
    web sites. SSA does not endorse these sites, nor can SSA confirm that these private web sites are kept
    up-to-date or accurate with SSA’s death data.
Page 8 – The Commissioner


CONCLUSIONS AND RECOMMENDATIONS
SSA did not act to correct cases that had been identified as having a date of death
discrepancy between the MBR or SSR and Numident records. Consequently, the
Agency made payments to individuals after their death; also, private information for
many living individuals was inadvertently listed in death records that were made
available to the public. Although SSA plans to strengthen data integrity, which should
reduce the number of date of death discrepancies, it is inevitable that errors to its
system records will be posted either from unintentional errors or from inaccurate
information. When such errors are discovered, SSA should take prompt action to verify
the information and correct the records. Accordingly, we recommend that SSA:

1. Recover the $605,195 paid after death for the eight individuals identified in the
   sample.

2. Ensure the data match of the entire population to identify cases that need to be
   corrected is completed and recover payments made after death (potentially
   $12.1 million for 160 cases).

3. Ensure the 71 alive individuals, whose records were still listed in Internet death
   records, are removed from the DMF.

4. Determine whether the remaining 71 unresolved cases were alive, and, if so,
   remove them from the DMF and recover payments made after death if any.

5. Establish a schedule (such as quarterly) to conduct routine periodic data integrity
   matches to identify date of death discrepancies for review and correction.

AGENCY COMMENTS
SSA agreed with our recommendations. The text of SSA's comments is included in
Appendix A.

OIG RESPONSE
We commend SSA for its prompt action on our recommendations. The quarterly
identification of names and SSNs from the DMF that require investigation, if properly
implemented, will minimize the risk that payments are made after death. Further, it
should result in more timely correction of DMF records for individuals whose records
were improperly listed as deceased. Also, SSA’s data match of the entire population
could potentially recover $12.1 million in improper payments.




                                                        James G. Huse, Jr.
                               Appendices
APPENDIX A - Agency Comments

APPENDIX B - OIG Contacts and Staff Acknowledgments
                  Appendix A

Agency Comments
                                        SOCIAL SECURITY

MEMORANDUM                                                                      31211-24-797


Date:      September 30, 2002                                                   Refer To:   S1J-3

To:        James G. Huse, Jr.
           Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Old-Age, Survivors and Disability
           Insurance and Supplemental Security Income Payments to Deceased Beneficiaries and
           Recipients” (A-06-02-12012)—INFORMATION

           We appreciate OIG’s efforts in conducting this review. Our comments on the report content and
           recommendations are attached. Staff questions can be referred to Odessa J. Woods on extension
           50378.

           Attachment:
           SSA Comments




                                                        A-1
COMMENTS OF THE SOCIAL SECURITY ADMINISTRATION (SSA) ON THE
OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT REPORT, “OLD-AGE,
SURVIVORS AND DISABILITY INSURANCE AND SUPPLEMENTAL SECURITY
INCOME PAYMENTS TO DECEASED BENEFICIARIES AND RECIPIENTS”
(A-06-02-12012)


Thank you for the opportunity to review the subject draft report.

We offer the following comments.

Recommendation 1

Recover the $605,195 paid after death for the eight individuals identified in the sample.

SSA Comment

We agree. SSA will review and contact the appropriate office to obtain the status of the eight
individuals identified in the sample. We expect to have these cases reviewed and recovery
started on each case within the month.

Recommendation 2

Ensure that the data match of the entire population to identify cases that need to be corrected is
completed and recover payments made after death (potentially $12.1 million for 160 cases).

SSA Comment

We agree. Earlier this year SSA began a data match of the entire population to identify cases
that needed to be corrected. The selection criteria were reevaluated and in August 2002, the data
match was done again. It is expected that by the end of September 2002, SSA will begin
corrective work on the results.

Recommendation 3

Ensure that the 71 live individuals, whose records were still listed in Internet death records, are
removed from the Death Master File (DMF).

SSA Comment

We agree. SSA will review the 71 cases when received from OIG against the DMF to determine
if they have been removed. If the Social Security numbers (SSN) have not been removed, the
appropriate office will be notified to take the necessary corrective action.




                                                 A-2
                                                                                                 2
Recommendation 4

Determine if the remaining 71 unresolved cases were alive and, if so, remove them from the
DMF and recover payments made after death if any.

SSA Comment

We agree. SSA has sent the 71 unresolved cases to the appropriate office for follow up status
and corrective actions. SSA expects all cases to be reviewed by the end of October 2002.

Recommendation 5

Establish a schedule (such as quarterly) to conduct routine periodic data integrity matches to
identify date of death discrepancies for review and correction.

SSA Comment

We agree with the recommendation. In March 2002, SSA implemented an automated utility that
performs a comparison of the DMF against the Master Beneficiary Record and Supplemental
Security Record to detect inconsistent death data. The utility provides the field with a quarterly
electronic and hard copy report titled "DMF MATCH" that lists names and SSNs that require
investigation.




                                               A-3
                                                                       Appendix B

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly Byrd, Director, Southern Audit Division (205) 801-1605

   Paul Davila, Deputy Director (214) 767-6317

Acknowledgments
In addition to those named above:

    Billy W. Mize, Auditor-in-Charge

    Joshua M. Campos, Auditor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-06-02-12012.
                            DISTRIBUTION SCHEDULE

                                                                          No. of
                                                                         Copies

Commissioner of Social Security                                               1
Management Analysis and Audit Program Support Staff, OFAM                    10
Inspector General                                                             1
Assistant Inspector General for Investigations                                1
Assistant Inspector General for Executive Operations                          3
Assistant Inspector General for Audit                                         1
Deputy Assistant Inspector General for Audit                                  1
 Director, Data Analysis and Technology Audit Division                        1
 Director, Financial Audit Division                                           1
 Director, Southern Audit Division                                            1
 Director, Western Audit Division                                             1
 Director, Northern Audit Division                                            1
 Director, General Management Audit Division                                  1
Team Leaders                                                                 25
Income Maintenance Branch, Office of Management and Budget                    1
Chairman, Committee on Ways and Means                                         1
Ranking Minority Member, Committee on Ways and Means                          1
Chief of Staff, Committee on Ways and Means                                   1
Chairman, Subcommittee on Social Security                                     2
Ranking Minority Member, Subcommittee on Social Security                      1
Majority Staff Director, Subcommittee on Social Security                      2
Minority Staff Director, Subcommittee on Social Security                      2
Chairman, Subcommittee on Human Resources                                     1
Ranking Minority Member, Subcommittee on Human Resources                      1
Chairman, Committee on Budget, House of Representatives                       1
Ranking Minority Member, Committee on Budget, House of Representatives        1
Chairman, Committee on Government Reform and Oversight                        1
Ranking Minority Member, Committee on Government Reform and Oversight         1
Chairman, Committee on Governmental Affairs                                   1
Ranking Minority Member, Committee on Governmental Affairs                    1
Chairman, Committee on Appropriations, House of Representatives               1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                    1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Committee on Appropriations, U.S. Senate                            1
Ranking Minority Member, Committee on Appropriations, U.S. Senate             1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate               1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                  1
Chairman, Committee on Finance                                                1
Ranking Minority Member, Committee on Finance                                 1
Chairman, Subcommittee on Social Security and Family Policy                   1
Ranking Minority Member, Subcommittee on Social Security and Family Policy    1
Chairman, Senate Special Committee on Aging                                   1
Ranking Minority Member, Senate Special Committee on Aging                    1
President, National Council of Social Security Management Associations,
  Incorporated                                                                1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                1
Social Security Advisory Board                                                1
AFGE General Committee                                                        9
President, Federal Managers Association                                       1
Regional Public Affairs Officer                                               1


Total                                                                        96
                  Overview of the Office of the Inspector General


                                        Office of Audit

The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                               Office of Executive Operations

The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
the Agency, as well as conducting employee investigations within OIG. Finally, OEO
administers OIG’s public affairs, media, and interagency activities and also communicates OIG’s
planned and current activities and their results to the Commissioner and Congress.

                                    Office of Investigations

The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General

The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
